                             SOCIAL SECURITY
                                                                         Inspector General

                                     August 8, 2002


The Honorable Wally Herger
Chairman, Subcommittee on Human Resources
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Herger:

In response to your July 29, 2002 letter, the Social Security Administration, Office of the
Inspector General, is pleased to provide you the requested information regarding the
integrity of the Supplemental Security Income (SSI) program.

The enclosed report provides information regarding the following:

·   A proposal to create an "integrity fund" of program savings that could be used to
    strengthen efforts to reduce waste, fraud, and abuse.

·   Efforts to ensure individuals who are not residing in the United States do not claim
    SSI payments.

·   Information on the $6 billion in monetary accomplishments cited in our report,
    Significant Accomplishments of the Social Security Administration's Office of the
    Inspector General - April 1, 1995 through September 30, 2000.

If you have any questions or would like to be briefed on these issues, please call me or
have your staff contact Douglas Cunningham, Executive Assistant, at (202) 358-6319.

                                                 Sincerely,




                                                 James G. Huse, Jr.

Enclosure

cc:
Jo Anne B. Barnhart, Commissioner

            SOCIAL SECURITY ADMINISTRATION          BALTIMORE MD 21235-0001
 CONGRESSIONAL RESPONSE
        REPORT


Integrity of the Supplemental Security
           Income Program

              A-01-02-22095




             AUGUST 2002
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                                      Background
On July 25, 2002, the Social Security Administration’s (SSA) Inspector General testified
before the Subcommittee on Human Resources, Committee on Ways and Means,
regarding fraud and abuse in the Supplemental Security Income (SSI) program. As a
follow-up to this hearing, on July 29, 2002, Congressman Wally Herger, Chairman of the
Subcommittee, requested that SSA’s Office of the Inspector General (OIG) provide
additional information regarding SSI program issues discussed during the hearing.
Specifically, Chairman Herger requested information regarding the following:

1. A proposal to create an "integrity fund" of program savings that could be used to
   strengthen efforts to reduce waste, fraud, and abuse.

2. Efforts to ensure individuals who are not residing in the United States do not claim
   SSI payments.

3. Information on the $6 billion in monetary accomplishments cited in our report,
   Significant Accomplishments of the Social Security Administration's Office of the
   Inspector General - April 1, 1995 through September 30, 2000.

SSA administers both the SSI and the Old-Age, Survivors and Disability Insurance
(OASDI) programs. The SSI program provides cash assistance to individuals who have
limited income and resources and who are either age 65 or older, blind or disabled.1
The OASDI program provides benefits to qualified retired and disabled workers and
their dependents, and to survivors of insured workers. In Calendar Year 2000, an
average of 6.3 million individuals received SSI payments on a monthly basis, and
2.4 million of these individuals also received OASDI benefits. SSA defines individuals
who receive both OASDI and SSI payments as concurrent beneficiaries. Concurrent
beneficiaries are generally able to receive their OASDI benefits while outside the
United States depending upon such factors as citizenship and country of residence.

In 1997, after several years of reporting on specific instances of abuse and
mismanagement, increasing overpayments and poor recovery of outstanding SSI debt,
the General Accounting Office (GAO) designated SSI a high-risk program. Unlike the
OASDI program, SSI is a means-tested program. As a result, SSA must collect and
verify information on income, resources and recipient living arrangements to determine
initial and continuing eligibility for the program. Prior GAO and OIG work, however,
shows that SSA has often placed a greater priority on quickly processing and paying
SSI claims with insufficient attention to verifying recipient-reported information and
controlling program expenditures.




1
 To be eligible for SSI payments, the individual must also (1) be a U.S. resident; (2) be a U.S. citizen or
an eligible noncitizen; and (3) meet certain income and resource limits.


Integrity of the SSI Program (A-01-02-22095)                                                                  1
                                               Results of Review
Since GAO designated SSI as a high-risk program, SSA has taken steps to improve the
program and recently established a corrective action plan with the goal of removing the
SSI program from GAO’s high-risk list. We believe our reviews and recommendations
will also assist the Agency as it attempts to reach this goal.

1. PROPOSAL TO CREATE AN INTEGRITY FUND OF PROGRAM
   SAVINGS
Recently, the President and Congress have expressed interest in measuring the
universe of improper payments within the Government. In August 2001, the Office of
Management and Budget (OMB) published The President’s Management Agenda,
FY 2002, which includes a Government-wide initiative for improving financial
performance. Under this initiative, the Administration will establish a baseline of the
extent of erroneous payments and require agencies to include in their Fiscal Year
(FY) 2003 budget submissions information on erroneous payment rates, including
actual and target rates, where available, for benefit and assistance programs over
$2 billion. Using this information, OMB will work with agencies to establish goals to
reduce erroneous payments for each program. On July 17, 2001, OMB issued
Circular A-112 to Federal agencies to assist them in preparing their FY 2003 budget
submissions. Section 57 of this Circular discusses reporting requirements for erroneous
payments.

       Erroneous payments are payments made under the programs listed in Exhibit 57
       (for SSA, these programs are OASDI, and SSI) that should not have been made
       or were made for an incorrect amount. In this context, “payments” include the
       provision of benefits that do not necessarily involve cash disbursements
       (e.g., loan guarantees). Examples of erroneous payments include payments to
       ineligible persons or the wrong organizations, payments in the wrong amount,
       payments for ineligible services, duplicate or other overpayments, and payments
       for services never received. Erroneous payments may be due to procedural or
       administrative errors made by the payor (e.g., providing incorrect account
       numbers in payment instructions) or errors or fraud by payees or claimants
       (e.g., under reporting of income by beneficiary). Covered payments include
       overpayments and underpayments made by the Federal Government, its direct
       contractors, and by States or other grant recipients administering Federal
       programs.

In October 2001, GAO issued an executive guide on Strategies to Manage Improper
Payments. GAO defined improper payments as payments that should not have been
made or that were made for incorrect amounts. Examples of improper payments
include inadvertent errors, payments for unsupported or inadequately supported

2
 Transmittal Memorandum No. 74, Subject: Preparing and Submitting Budget Estimates, part 1,
subpart III, section 57, dated July 17, 2001 and revised November 8, 2001.


Integrity of the SSI Program (A-01-02-22095)                                                  2
claims, payments for services not rendered, payments to ineligible beneficiaries, and
payments resulting from fraud and abuse by program participants and/or Federal
employees. GAO further stated that improper payments occur for many reasons,
including insufficient oversight or monitoring, inadequate eligibility controls and
automated system deficiencies. The risk of improper payments increases in programs
with (1) a significant volume of transactions, (2) complex criteria for computing
payments, and/or (3) an overemphasis on expediting payments.

To address the issues raised by the President's Management Agenda on improving
financial performance, the Chief Financial Officer Council and the President's Council
on Integrity and Efficiency established a work group to benchmark methods to reduce or
eliminate, where possible, improper and erroneous payments made by Federal
agencies.

Specifically, the work group plans to propose that legislation be enacted to authorize—
for all Federal Departments, agencies and OIGs—a percentage of actual collections of
erroneous payments be used to fund activities to prevent, detect and collect erroneous
payments. This legislation would establish permanent indefinite appropriations—
subject to apportionment by OMB—available to each Department, agency and OIG.
Funding of these accounts would be based on a percentage of actual collections. For
example, each Department or agency could be authorized to expend up to 22.5 percent,
and each OIG up to 2.5 percent, respectively, of actual collections. Further,
Departments, agencies and OIGs would report on how these monies were used to
prevent, detect, and collect erroneous payments as part of the reports required under
the Reports Consolidation Act of 2000 (Accountability Reports) and the Inspector
General Act of 1978 (Semiannual Reports to Congress). The OIG fully supports the
development of this legislation and the work group’s efforts. In fact, we propose the
creation of an integrity fund built on program dollar savings that this fund could provide
resources to strengthen efforts to reduce fraud, waste and abuse.

2. EFFORTS TO ENSURE ONLY INDIVIDUALS RESIDING IN THE
   UNITED STATES CLAIM SSI PAYMENTS
Since early in our existence as an OIG, we have conducted numerous special
investigative projects and audits to review U.S. residency issues for SSI recipients. For
example, in 1997, we conducted the Southwest Tactical Operations Plan, a U.S.-Mexico
border pilot in El Paso, Texas. This project identified 153 SSI recipients who were
ineligible because they were not U.S. residents. Also, in May 1997, we issued a report
recommending procedural improvements for SSA—including expanded use of private
contractors to conduct home visits of suspected nonresidents.3 Further, in May 2001,
we reviewed the effectiveness of SSA's New York Project based on nonusage of



3
  SSA OIG report, The Adequacy of the Residency Verification Process for the Supplemental Security
Income Program (A-06-96-62001), May 1997.



Integrity of the SSI Program (A-01-02-22095)                                                         3
Medicaid. This report contained six recommendations to improve SSA's detection of
nonresident SSI recipients.4

SSA’s Controls to Identify Nonresidents Receiving SSI Payments
Section 1614(a)(1)(B) of the Social Security Act requires that to be eligible for SSI
payments an individual must be a resident of the United States. Additionally, section
1611(f) of the Social Security Act states that no individual shall be considered eligible
for SSI payments for any month throughout which the individual is outside the
United States. This prohibition also applies to recipients in Puerto Rico and the
Virgin Islands. The only exemptions to collecting SSI payments while outside the
United States are for:

          §   certain students temporarily studying abroad and

          §   blind or disabled children of military families stationed overseas.

Once SSI payments are suspended for being outside the United States, SSI recipients
must be back in the United States for 30 consecutive days before SSI payments
resume.5

SSA has the following controls in place6 to identify SSI recipients outside of the
United States:

·     foreign address alert process for concurrent beneficiaries and

·     various special projects or studies.

Foreign Address Alert Process for Concurrent Beneficiaries

If an individual concurrently receives both SSI and OASDI benefits, and the OASDI
record shows an address outside the United States, SSA’s systems generate a foreign
address alert.7 This alert notifies the appropriate SSA field office (FO) that the SSI
recipient may be outside the United States, and therefore, ineligible for SSI payments.
The FO is responsible for investigating the alert to determine whether the SSI payments
should be suspended.


4
 SSA OIG report, Effectiveness of the Social Security Administration’s Special Project Reviews of
Supplemental Security Income Recipients (A-09-99-62010), May 2001.
5
    Program Operations Manual System (POMS), section SI 00501.410.
6
  SSA also compares Immigration and Naturalization Service applications (Form I-131) for aliens leaving
the United States to its payment records.
7
    In November 2001, SSA expanded the alert process to include OASDI addresses in Puerto Rico.



Integrity of the SSI Program (A-01-02-22095)                                                              4
SSA’s alert process is based only on the OASDI address information—not on direct
deposit data. As a result, if OASDI payments are made via direct deposit to a bank
outside the United States but the beneficiary’s address is in the United States, an alert
would not be generated. See the following flowchart for details of this alert process.8


                                                        A le rt P ro c e s s

                           M a s te r B e n e fic ia ry              S S A ’s s ys te m s in te rfa c e to
                        R e c o rd s h o w s b e n e fit             c re a te a n a le rt a t th e S S A
                      p a ym e n ts to a n a d d re s s             F O , a s w e ll a s a d ia ry w ith a
                     o u ts id e th e U n ite d S ta te s                    6 0 -d a y m a tu rity.
                        a n d th e S S I p a ym e n t
                     s ta tu s is o th e r th a n “N 0 3 ”
                        (s u s p e n d e d fo r b e in g
                         o u ts id e o f th e U n ite d                S S A s ta ff c o n ta c t th e S S I
                                   S ta te s ).                                   re c ip ie n t.




                                                              No                        Is th e S S I
                       R e m o ve th e a le rt b y
                      e n te rin g 6 ze ro s in th e                           re c ip ie n t o u ts id e th e
                           d ia ry fie ld . (S S I                               U n ite d S ta te s fo r
                       p a ym e n ts c o n tin u e .)                              3 0 c o n s e c u tiv e
                                                                                          d a ys ?

                                                                                                    Yes


                                T ra n sm it p a ym e n t s ta tu s c o d e “N 0 3 ” fo r m o n th s
                           in e lig ib le fo r S S I p a ym e n ts (th is w ill re m o ve th e d ia ry).
                                  S S I p a ym e n ts w ill s to p a n d a n o ve rp a ym e n t, if
                                              a p p lic a b le , w ill b e e s ta b lis h e d .




Projects to Identify SSI Recipients Outside the United States

SSA has initiated a number of special studies and projects over the years to identify and
prevent SSI payments to recipients living outside the United States. These projects—
some of which were conducted jointly with the OIG—have improved SSA’s controls to
prevent SSI payments to recipients outside the United States. The following table
describes some of these projects.




8
    The flowchart is based on POMS, section SM 02001.215.


Integrity of the SSI Program (A-01-02-22095)                                                                     5
     PROJECT                                            RESULTS
Southwest Tactical      We initiated STOP to determine whether individuals were
Operations Plan9        receiving SSI payments based on fraudulent statements
(STOP)                  regarding residence in the El Paso, Texas area. As a result of
                        this project, we estimated that SSA could recover in
                        overpayments—and save through cessation of payments—
                        $2.9 million projected over a 5-year period. This project also
                        developed characteristics to assist SSA in identifying SSI
                        claimants with questionable residency status.
New York Project        This project was initiated in the New York region to address
                        residency errors and consisted of foreign- and U.S.-born
                        recipients who had not used Medicaid services for at least
                        15 months. As a result of this project, SSA determined that
                        (a) 20 percent of foreign born SSI recipients had periods of
                        ineligibility due to being outside the United States and
                        (b) 0.2 percent of U.S.-born recipients had payment errors
                        because of U.S. absences. This project in New York—and its
                        expansion into New Jersey—identified $13.6 million in SSI
                        overpayments. This led to additional projects being initiated in
                        other States nationwide.
Address Verification This project was initiated in the New York region to determine the
Project              current residence of concurrent beneficiaries who have
                     addresses in Puerto Rico on their Master Beneficiary Records
                     and addresses in the United States on their Supplemental
                     Security Records. Of the 259 cases completed, 205 were
                     suspended, and overpayments of $262,391 were identified.
                     SSA’s expansion of the foreign address alert process to include
                     Puerto Rico—which was implemented in November 2001—was a
                     result of this project.
Operation Border        This project was established to identify suspect claims at selected
Vigil                   foreign sites. Specific projects involved the following foreign
                        countries: Panama, Canada, Poland, the Republic of Yemen,
                        Costa Rica, and Mexico. In January 1998, results showed
                        savings of $89,057.
The Adequacy of         This project was conducted by SSA’s Chula Vista, California,
the Residency           office in conjunction with the OIG. This project found that 110 of
Verification Process    233 recipients were living outside the United States—or could not
for the SSI Program     be located—and had their SSI payments suspended. We
                        recommended that SSA revise its procedures to provide for
                        expanded residency development.


9
 SSA OIG report, Southwest Tactical Operations Plan: Lessons Learned (A-06-97-22010),
December 1997.


Integrity of the SSI Program (A-01-02-22095)                                               6
In addition to the projects listed above, we recently conducted an audit of Controls to
Prevent Supplemental Security Income Payments to Recipients Living in Foreign
Countries (A-01-02-12013). Our review found that SSA has controls in place to prevent
SSI payments to beneficiaries who have addresses outside the United States—
including addresses in Puerto Rico. However, improvements could be made to
enhance SSA’s efforts in this area. While the errors identified during our audit were a
small percentage of the total payments SSA makes to SSI recipients, we believe SSA
can improve controls in this area, without expending significant Agency resources. We
recommended that SSA modify its alert process to include (1) SSI payments direct
deposited to banks in Puerto Rico and the Virgin Islands and (2) concurrent
beneficiaries with OASDI benefits direct-deposited into banks outside the United States.

Automated Teller Machine Withdrawals

While performing the audit described in the preceding paragraph, we explored the idea
of examining automated teller machine (ATM) withdrawal records. Such records could
be used to identify SSI recipients receiving their payments by direct deposit in a U.S.
bank account, but who may be living in a foreign country and withdrawing their benefits
from ATM machines outside the United States. However, we could not include ATM
records in our audit tests because the Right to Financial Privacy Act of 1978 protects
against disclosure of personal financial records held by banks, except under subpoena.

SSA submitted a proposed rule, Access to Information Held by Financial Institutions, to
OMB in January 2002. This proposed rule would enhance SSA’s access to bank
account information of SSI applicants and recipients. Specifically, section 213 of the
Foster Care Independence Act of 1999 (Public Law (P.L.)106-169) amended section
1631(e)(1)(B) of the Social Security Act to grant the SSA Commissioner new authority
with respect to verifying financial accounts. The rule submitted to OMB proposes to
grant SSA permission to contact financial institutions a condition of SSI eligibility. This
would allow SSA to ask financial institutions for information when it thinks it is necessary
to determine SSI eligibility. If this proposed rule is approved, it may allow SSA and/or
the OIG to obtain and analyze ATM withdrawal records for SSI recipients with direct
deposit in U.S. banks.

To date, we have not been able to obtain ATM withdrawal records to test for SSI
nonresidency. However, we plan to continue our work to ascertain whether ATM
information can be obtained and used as a tool to identify SSI recipients who may be
ineligible for payments.

3. RECENT OIG MONETARY FINDINGS
Since the OIG was established in 1995, our work has resulted in significant monetary
findings—almost $6 billion in savings, potential cost avoidance and inaccurate
payments. For example, recent OIG audit and investigative work in the areas of
workers’ compensation (WC), fugitive felons, prisoners, student beneficiaries, and




Integrity of the SSI Program (A-01-02-22095)                                              7
individuals with drug and alcohol addictions has raised numerous concerns about data
integrity and challenges associated with depending on self-reporting of beneficiary
information.

Below, we have noted by FY where the Agency could achieve significant cost
avoidance, potential savings and opportunities to improve payment accuracy. In
addition, we have performed many reviews of SSA’s business processes that did not
result in monetary findings. For example, many of our reviews have recommended
improvements in SSA’s enumeration process, earnings reporting activities, and financial
and performance management. The table below provides an overview of our monetary
findings, and Appendix C provides additional details and Agency responses to the
reports that contributed significantly to these findings.

                                                      PROGRAMS AND ACTIVITIES
FISCAL                MONETARY                        REVIEWED WITH SIGNIFICANT
 YEAR                  FINDINGS                          MONETARY FINDINGS
    1995*                    $39 million         Field Office Workloads
    1996                     124 million         SSI and OASDI Payments to Prisoners
    1997                     767 million         SSI and OASDI Payments to Prisoners,
                                                 Replacement Social Security number (SSN)
                                                 Cards
     1998                  2,449 million         Inconsistent Entitlement Periods in OASDI
                                                 Program, Offset of Workers Compensation
                                                 Payments
     1999                    817 million         OASDI Benefits Based on Nonwork SSNs,
                                                 OASDI Beneficiaries Attaining Age 18,
                                                 Waived OASDI Overpayments
     2000                  1,651 million         SSI and OASDI Benefit Payments to
                                                 Fugitives, SSI Recipients with Income,
                                                 Individuals with Drug Addiction and/or
                                                 Alcoholism Impairments, Attorney Fees in
                                                 OASDI Workers’ Compensation Offset Cases
    Total               $5,847 million
      * Reflects data from April 1 through September 30, 1995.

·    Payments to Prisoners: The Social Security Act prohibits the payment of benefits
     to prisoners under both the OASDI and SSI programs. In FYs 1996 and 1997, we
     conducted two audits related to prisoners—Effectiveness in Obtaining Records to
     Identify Prisoners (A-01-94-02004), May 1996, and Effectiveness of the Social
     Security Administration's Procedures to Process Prisoner Information, Suspend
     Payments and Collect Overpayments (A-01-96-61083), June 1997. Our prisoner
     reviews found that the limited data received from Federal, State, and local
     correctional facilities resulted in improper payments to prisoners. As a result of
     these audits, (1) SSA pursued legislation (enacted in 1999) to make the prisoner
     suspension requirements under both programs consistent and (2) SSA's Chief
     Actuary estimated a cost avoidance of about $3.4 billion over 7 years.


Integrity of the SSI Program (A-01-02-22095)                                                 8
·   Charging a Fee for Replacement Social Security Cards: Our report Canada's
    Experience in Charging a User Fee for Social Insurance Number Cards
    (A-06-97-62003) was issued in May 1997. We assessed the feasibility of SSA
    charging a fee for replacement SSN cards based on a review of the Canadian
    Government’s experience in charging a user fee for replacement cards. Based on
    SSA's cost estimates for producing an SSN card, we estimated SSA should charge
    $13 for replacement cards. Through a combination of revenue generation and cost
    avoidance (assuming some individuals become more responsible with their cards),
    SSA could save approximately $142 million annually or $710 million over 5 years.
    Therefore, we recommended that SSA charge a fee for replacement SSN cards.

·   Inconsistent Beneficiary Entitlement Periods: We assessed the program and
    financial impacts resulting from SSA’s use of the common law definition of age
    attainment in our review, Inconsistent Beneficiary Entitlement Periods
    (A-09-97-21003), July 1998. Our review determined that current law had created
    two inconsistencies in SSA’s OASDI program that cost SSA about $1.47 billion over
    a 5-year period. One inconsistency was that the criteria for determining the
    1st month of entitlement to benefits varied depending on the type of beneficiary. The
    other inconsistency was that persons born on the 1st day of a month have different
    entitlement periods than persons born on other days of the same month.

·   Workers’ Compensation Payments: We conducted two WC reviews—Effects of
    State Awarded Workers' Compensation Payments on Social Security Benefits
    (A-04-96-61013), September 1998, and Worker's Compensation Unreported by
    Social Security Beneficiaries (A-04-98-64002), December 1999. Our reviews found
    that inaccurate OASDI benefit payments stemmed from (1) beneficiaries not
    voluntarily reporting changes in their WC status and benefits and (2) computational
    errors due to a lack of sufficient quality controls and emphasis on processing claims
    quickly to meet performance goals and backlogs. We estimated payment errors of
    $852.5 million—with the trust fund losing $599.5 million due to overpayments, but
    paying out $253 million in underpayments—with a net effect of the Social Security
    trust fund losing an estimated $346.5 million. After our review, SSA conducted its
    own study and determined in FY 2000 that for a universe of 112,230 cases for the
    period 1966 through 1998, the total estimated prior and future error consists of
    $1.07 billion in underpayments and $261 million in overpayments.

·   Controls Over Nonwork SSNs: Our report Review of Controls over Nonwork Social
    Security Numbers (A-08-97-41002), September 1999, analyzed (1) SSA benefits
    paid to beneficiaries under nonwork SSNs; (2) earnings reported for nonwork SSNs;
    and (3) whether SSA had adequate controls over the issuance of nonwork SSNs.
    Based on the results of our review, we estimated that, as of May 1998, unauthorized
    earnings associated with nonwork SSNs had cost SSA trust funds $287 million. If
    SSA continues to pay benefits based on unauthorized work, it may spend an
    additional $63 million per year of trust fund resources. Over the lifetimes of the
    nonwork SSN holders and their dependents, we estimated that unauthorized
    earnings associated with these nonwork SSNs may cost SSA’s trust funds over


Integrity of the SSI Program (A-01-02-22095)                                                9
    $1.7 billion. We proposed legislation to prohibit the crediting of nonwork earnings for
    purposes of benefit entitlement. We believe that legislative and policy changes are
    essential to reducing the monetary impact that unauthorized earnings associated
    with previously issued nonwork SSNs may have on SSA’s trust funds.

·   Benefits Paid to Student Beneficiaries After Reaching Age 18: In our audit
    School Attendance by Child Beneficiaries Over Age 18 (A-09-97-61007),
    September 1999, we found that student beneficiaries received incorrect payments.
    These incorrect payments occurred because SSA did not adequately monitor the
    beneficiaries’ school attendance and relied on these individuals to voluntarily report
    events that affected their benefit status. We estimated that the incorrect and
    unsupported payments amounted to $73.9 million and $140.4 million, respectively.

·   Identification of Fugitives Receiving SSI Payments: In August 1996, the Personal
    Responsibility and Work Opportunity Reconciliation Act of 1996 (P.L. 104-193)
    amended the Social Security Act to prohibit SSI payments to fugitive felons.
    However, as a result of our August 2000 audit, Identification of Fugitives Receiving
    SSI Payments (A-01-98-61013), we estimated that fugitives were incorrectly paid at
    least $76 million in SSI payments from the date Public Law 104-193 took effect
    through the date we conducted our audit. Further, we estimated that SSA would
    continue to pay fugitives at least $30 million in SSI payments each year that State
    fugitive files were not used to prevent such payments.

Appendix C contains further details on the above audit reports and the full text of the
reports are available on our web-site at http://www.ssa.gov/oig.




Integrity of the SSI Program (A-01-02-22095)                                              10
                                        Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Related Office of the Inspector General Reports

APPENDIX D – OIG Contacts and Staff Acknowledgments




Integrity of the SSI Program (A-01-02-22095)
                                                                      Appendix A

Acronyms
    ATM                 Automated Teller Machine
    FO                  Field Office
    FY                  Fiscal Year
    GAO                 General Accounting Office
    OASDI               Old-Age, Survivors and Disability Insurance
    OIG                 Office of the Inspector General
    OMB                 Office of Management and Budget
    P.L.                Public Law
    POMS                Program Operations Manual System
    SSA                 Social Security Administration
    SSI                 Supplemental Security Income
    SSN                 Social Security Number
    STOP                Southwest Tactical Operations Plan
    WC                  Workers’ Compensation




Integrity of the SSI Program (A-01-02-22095)
                                                                    Appendix B

Scope and Methodology
We limited our review to summarizing prior Office of the Inspector General and Social
Security Administration (SSA) work regarding the integrity of SSA’s programs to answer
the Chairman’s questions. We performed our review in Boston, Massachusetts, and
Baltimore, Maryland, during July and August 2002. We conducted our review in
accordance with generally accepted government auditing standards.




Integrity of the SSI Program (A-01-02-22095)
                                                                        Appendix C

Related Office of the Inspector General Reports
                      SSI AND OASDI PAYMENTS TO PRISONERS

Reports                Effectiveness in Obtaining Records to Identify Prisoners
                       (A-01-94-02004), May 1996

                       Effectiveness of the Social Security Administration's
                       Procedures to Process Prisoner Information, Suspend
                       Payments and Collect Overpayments (A-01-96-61083),
                       June 1997

Objectives             To determine whether the Social Security Administration (SSA)
                       had adequate procedures for matching Federal, State, county, and
                       local prisoner data to SSA's records and suspending payments to
                       prisoners identified. Also, to determine whether SSA was effective
                       in collecting overpayments from prisoners.

Recommendations        §   Institute computer matching agreements with correctional
                           agencies to obtain information on all prisoners.

                       §   Modify the prisoner match to control and follow up on alerted
                           cases to provide reasonable assurance that they are resolved
                           in a timely manner.

                       §   Pursue legislation to provide a single standard for stopping
                           payments to prisoners receiving Old-Age, Survivors and
                           Disability Insurance (OASDI) and Supplemental Security
                           Income (SSI) payments.

Monetary Findings      According to SSA's Chief Actuary, the estimated cost avoidance
                       related to prisoners would be about $3.4 billion over 7 years.

Agency Response        SSA agreed that it should seek more effective means for
                       identifying prisoners who are receiving benefits. SSA also agreed
                       with our recommendations regarding processing alerts for
                       prisoners receiving benefits. Additionally, legislation related to a
                       single standard for stopping payments to prisoners was enacted in
                       1999.




Integrity of the SSI Program (A-01-02-22095)                                              C-1
                REPLACEMENT SOCIAL SECURITY NUMBER CARDS

Report                 Canada’s Experience in Charging a User Fee for Social
                       Insurance Number Cards (A-06-97-62003), May 1997

Objective              To provide information regarding the feasibility of SSA charging a
                       fee for replacement Social Security number (SSN) cards based on
                       a review of the Canadian Government’s experience in charging a
                       user fee for replacement Social Insurance Number cards.

Recommendation         Charge a fee for replacement SSN cards.

Monetary Findings      The implemented recommendation is valued at approximately
                       $142 million annually or $710 million over 5 years.

Agency Response        SSA neither agreed nor disagreed with our recommendation.
                       However, the Agency’s Enumeration Response Team is
                       considering ways to reduce the number of SSN replacement cards
                       requested and issued each year. One of the options being
                       considered is charging a fee for replacement cards.



            INCONSISTENT ENTITLEMENT PERIODS IN OASDI PROGRAM

Report                 Inconsistent Beneficiary Entitlement Periods (A-09-97-21003),
                       July 1998

Objective              To assess the program and financial impacts resulting from SSA’s
                       use of the common law definition of age attainment.

Recommendations        §   Submit a legislative proposal to define the month after the
                           individual's birthday as the first month of entitlement.

                       §   Submit a legislative proposal to define age attainment as
                           occurring on a person's birthday.

Monetary Findings      The implemented recommendations were valued at $1.47 billion.

Agency Comments SSA disagreed with our recommendations.




Integrity of the SSI Program (A-01-02-22095)                                             C-2
                OFFSET OF WORKERS’ COMPENSATION PAYMENTS

Reports                Effects of State Awarded Workers' Compensation Payments
                       on Social Security Benefits (A-04-96-61013), September 1998

                       Workers’ Compensation Unreported by Social Security
                       Beneficiaries (A-04-98-64002), December 1999

Objectives             To review OASDI benefits paid to individuals who also received
                       workers' compensation (WC) payments and the internal controls
                       established over that process to ensure payment accuracy.

Recommendations        §   Recognize and identify WC as a reportable internal control
                           weakness under the Federal Managers' Financial Integrity Act.

                       §   Review cases in our samples to determine the proper benefit
                           amount and take required actions regarding beneficiaries’ over-
                           and underpayments.

                       §   Periodically obtain computer extracts of State WC information
                           and benefit payments. Match the State WC rates against the
                           rates used for offset to identify potential nonreporters and
                           cases not properly offset.

                       §   In those States where WC data cannot be obtained for
                           computer matching, institute alternative measures to
                           proactively identify WC benefits and benefit changes that are
                           unreported by recipients.

Monetary Findings      We estimated that some of our recommendations would result in
                       payment errors of $852.5 million—with the trust fund losing
                       $599.5 million due to overpayments, but paying out $253 million in
                       underpayments—with a net effect of the Social Security trust fund
                       losing an estimated $346.5 million.

Agency Response        When responding to our report, SSA rejected our recommendation
                       to report the WC offset issue as a material internal control
                       weakness. Subsequently, SSA conducted its own study and
                       determined that for the universe of 112,230 cases from the period
                       1966 through 1998, the total estimated past and future error
                       consisted of $1.07 billion in underpayments and $261 million in
                       overpayments.




Integrity of the SSI Program (A-01-02-22095)                                           C-3
                    OASDI BENEFITS BASED ON NONWORK SSNs

Report                 Review of Controls over Nonwork Social Security Numbers
                       (A-08-97-41002), September 1999

Objectives             To (1) analyze SSA benefits paid to beneficiaries under nonwork
                       SSNs; (2) analyze earnings reported for nonwork SSNs; and
                       (3) determine whether SSA has adequate controls over the
                       issuance of nonwork SSNs.

Recommendation         Propose legislation to prohibit the crediting of nonwork earnings
                       for purposes of benefit entitlement.

Monetary Findings      Based on the results of our review, we estimated over the lifetimes
                       of the nonwork SSN holders and their dependents, unauthorized
                       earnings associated with these nonwork SSNs may cost the trust
                       funds over $1.7 billion.

Agency Response        SSA stated it had long been concerned about the use of nonwork
                       SSNs in the employment sector. However, SSA believes our
                       legislative proposal would be extremely difficult to administer
                       because SSA’s records would not allow them to determine the
                       periods of time when an individual may or may not be authorized
                       to work.




Integrity of the SSI Program (A-01-02-22095)                                               C-4
      OASDI BENEFITS PAID TO BENEFICIARIES AFTER ATTAINING AGE 18

Report                 School Attendance by Child Beneficiaries Over Age 18
                       (A-09-97-61007), September 1999

Objective              To determine the propriety of OASDI benefits to student
                       beneficiaries over age 18 and the adequacy of controls and
                       procedures to ensure they attended school full-time.

Recommendations        §   Obtain additional information from schools about student
                           attendance before awarding benefit payments.

                       §   Perform a follow-up review to identify all students in current
                           pay status beyond age 19 years and 2 months before the end
                           of Fiscal Year 2000. For each of these students, review the
                           case to ensure that appropriate actions were taken to terminate
                           benefits and establish overpayments.

Monetary Findings      We estimated that the incorrect and unsupported payments
                       amounted to $73.9 and $140.4 million, respectively.

Agency Response        SSA agreed with all of our recommendations. In March 2001,
                       SSA implemented new verification procedures for student
                       beneficiaries who attain age 18 in June 2001 or later.


                            WAIVED OASDI OVERPAYMENTS

Report                 Waivers Granted for Title II Overpayments Exceeding $500
                       (A-09-97-61005), September 1999

Objective              To determine whether SSA granted waivers of overpayments
                       exceeding $500 to beneficiaries in accordance with the Social
                       Security Act.

Recommendations        §   Develop procedures to preclude waivers to beneficiaries who
                           can repay their debts.

                       §   Revise procedures to preclude waivers to individuals who are
                           at fault for causing their overpayments.

Monetary Findings      We estimated that the incorrect and unsupported waiver decisions
                       amounted to $4.3 million and $37.4 million, respectively.

Agency Response        SSA did not agree with all of our recommendations.



Integrity of the SSI Program (A-01-02-22095)                                           C-5
                 SSI AND OASDI BENEFIT PAYMENTS TO FUGITIVES

Reports                Identification of Fugitives Receiving Supplemental Security
                       Income Payments (A-01-98-61013), August 2000

                       Old-Age, Survivors and Disability Insurance Benefits Paid to
                       Fugitives (A-01-00-10014), August 2000

Objectives             To determine whether SSA identified and prevented SSI payments
                       to fugitive felons. Also, to determine whether SSA should pursue
                       legislation to prohibit OASDI benefits to fugitives.

Recommendations        §   Reach agreement with State agencies to obtain their fugitive
                           information in an electronic format on a routine basis.

                       §   Pursue legislation prohibiting payment of OASDI benefits to
                           fugitives similar to the provisions pertaining to SSI payments.

Monetary Findings      We estimated that fugitives were incorrectly paid at least
                       $76 million in SSI payments from the date Public Law (P.L.)
                       104-193 took effect (August 1996) through the date we conducted
                       our review. Further, we estimated that SSA would continue to pay
                       fugitives at least $30 million in SSI payments each year that State
                       fugitives files were not used to prevent such payments. Also, we
                       estimated that at least $108 million in OASDI payments were paid
                       to fugitives between August 1996 and the date of our audit. In
                       addition, we estimated that fugitives would continue to receive at
                       least $39 million in OASDI benefits annually until legislation is
                       enacted to prohibit such benefit payments.

Agency Response        SSA agreed with our recommendations regarding SSI recipients
                       who are fugitives. Legislation to prohibit OASDI benefits to
                       fugitives is currently pending in Congress.




Integrity of the SSI Program (A-01-02-22095)                                              C-6
                              SSI RECIPIENTS WITH INCOME

Report                 Review of Controls Over Processing Income Alerts Which
                       Impact Supplemental Security Income Payments
                       (A-05-98-21002), September 2000

Objective              To assess how effectively SSA processes income alerts for SSI
                       recipients.

Recommendations        §   Develop a plan to ensure that income alerts are worked more
                           timely and income estimates are used.

                       §   Require all field offices to use an automated process to
                           manage alert workloads and minimize delays in starting alert
                           development.

Monetary Findings      We estimated $60.4 million in SSI overpayments could have been
                       prevented if SSA had more effectively processed income alerts.

Agency Response        SSA agreed that income alerts need to be worked more timely and
                       planned actions to implement our recommendations.


  INDIVIDUALS WITH DRUG ADDICTION AND/OR ALCOHOLISM IMPAIRMENTS

Report                 Implementation of Drug Addiction and Alcoholism Provisions
                       of Public Law 104-121 (A-01-98-61014), May 2000

Objective              To determine whether SSA identified all beneficiaries and
                       recipients for whom drug addiction and/or alcoholism was a
                       contributing factor material to the finding of disability.

Recommendation         Review the cases we identified and suspend benefits where
                       appropriate according to the provisions of P.L. 104-121.

Monetary Findings      We estimated that 3,190 individuals were incorrectly paid
                       $38.74 million in benefits since P.L. 104-121 took effect.

Agency Response        SSA agreed with our recommendations and stated that corrective
                       actions would be taken.




Integrity of the SSI Program (A-01-02-22095)                                           C-7
    ATTORNEY FEES IN OASDI WORKER’S COMPENSATION OFFSET CASES

Report                 The Social Security Administration Incorrectly Paid Attorney
                       Fees on Disability Income Cases When Workers'
                       Compensation Payments Were Involved (A-04-98-62001),
                       March 2000

Objective              To determine whether payments made to attorneys who
                       represented claimants applying for OASDI benefits and involving
                       WC payments were accurate.

Recommendations        §   Review the cases in our sample to determine the proper
                           attorney fee payment and take the required actions on the
                           errors identified.

                       §   Develop internal controls to prevent and detect the processing
                           errors identified during our review.

Monetary Findings      We estimated that 27,582 WC cases may have been paid
                       incorrect attorney fees with a potential total dollar error of
                       $33.8 million.

Agency Response        SSA acknowledged that payment accuracy problems exist in the
                       OASDI workload involving WC and recognized the merit of our
                       findings and recommendations.




Integrity of the SSI Program (A-01-02-22095)                                            C-8
                                                                        Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Rona Rustigian, Director, Northern Audit Division (617) 565-1819

   Paul Wood, Director, Policy, Planning and Technical Services (410) 964-7840

   Judith Oliveira, Deputy Director (617) 565-1765

Staff Acknowledgments

In addition to those named above:

   Joseph LoVecchio, Auditor

   Rina Abzug, Program Analyst

   Melinda Tabicas, Auditor


For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-01-02-22095.




Integrity of the SSI Program (A-01-02-22095)
                           DISTRIBUTION SCHEDULE

                                                                          No. of
                                                                         Copies

Commissioner of Social Security                                               1
Management Analysis and Audit Program Support Staff, OFAM                    10
Inspector General                                                             1
Assistant Inspector General for Investigations                                1
Assistant Inspector General for Executive Operations                          3
Assistant Inspector General for Audit                                         1
Deputy Assistant Inspector General for Audit                                  1
 Director, Data Analysis and Technology Audit Division                        1
 Director, Financial Audit Division                                           1
 Director, Southern Audit Division                                            1
 Director, Northern Audit Division                                            1
 Director, Western Audit Division                                             1
 Director, General Management Audit Division                                  1
Team Leaders                                                                 25
Income Maintenance Branch, Office of Management and Budget                    1
Chairman, Committee on Ways and Means                                         1
Ranking Minority Member, Committee on Ways and Means                          1
Chief of Staff, Committee on Ways and Means                                   1
Chairman, Subcommittee on Social Security                                     2
Ranking Minority Member, Subcommittee on Social Security                      1
Majority Staff Director, Subcommittee on Social Security                      2
Minority Staff Director, Subcommittee on Social Security                      2
Chairman, Subcommittee on Human Resources                                     1
Ranking Minority Member, Subcommittee on Human Resources                      1
Chairman, Committee on Budget, House of Representatives                       1
Ranking Minority Member, Committee on Budget, House of Representatives        1
Chairman, Committee on Government Reform and Oversight                        1
Ranking Minority Member, Committee on Government Reform and Oversight         1
Chairman, Committee on Governmental Affairs                                   1
Ranking Minority Member, Committee on Governmental Affairs                    1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                              1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1


Total                                                                        97
                   Overview of the Office of the Inspector General


                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                                   Office of Executive Operations
OEO supports the OIG by providing information resource management; systems security; and
the coordination of budget, procurement, telecommunications, facilities and equipment, and
human resources. In addition, this office is the focal point for the OIG’s strategic planning
function and the development and implementation of performance measures required by the
Government Performance and Results Act. OEO is also responsible for performing internal
reviews to ensure that OIG offices nationwide hold themselves to the same rigorous standards
that we expect from SSA, as well as conducting investigations of OIG employees, when
necessary. Finally, OEO administers OIG’s public affairs, media, and interagency activities,
coordinates responses to Congressional requests for information, and also communicates OIG’s
planned and current activities and their results to the Commissioner and Congress.


                                       Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                                  Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
